No. ___________
IN THE SUPREME COURT OF THE UNITED STATES
________________________
FRANK PURPERA,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.
________________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Fourth Circuit
________________________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
________________________

Beau B. Brindley
COUNSEL OF RECORD
And Blair T. Westover
For Petitioner Frank Purpera
Law Offices of Beau B. Brindley
53 W Jackson Blvd. Ste 1410
Chicago IL 60604
(312)765-8878
bbbrindley@gmail.com

INDEX TO APPENDICES
APPENDIX A - Court of Appeals Opinion Affirming Judgment ...............................A1
APPENDIX B – District Court Judgment Order .....................................................A44
APPENDIX C - District Court Memorandum Opinion denying post-trial motion .A54
APPENDIX D - Excerpt from February 1, 2018 trial transcript, District Court's
rejection of proposed jury instruction .......................................................................A87
APPENDIX E – District Court’s Rejected version of Proposed Defense Instruction B6 ..................................................................................................................................A89

2

APPENDIX A

A1

A2

A3

A4

A5

A6

A7

A8

A9

A10

A11

A12

A13

A14

A15

A16

A17

A18

A19

A20

A21

A22

A23

A24

A25

A26

A27

A28

A29

A30

A31

A32

A33

A34

A35

A36

A37

A38

A39

A40

A41

A42

A43

Case 7:17-cr-00079-EKD Document 221 Filed 02/20/19 Page 1 of 10 Pageid#: 2675
AO 245B

(Rev. 2/18- YAW Additions 05/17)Judgment in a Criminal Case
Sheet I

UNITED STATES DISTRICT COURT
Western District of Virginia
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: DV A W717CR000079-00 1

FRANK CRAIG PURPERA, JR.

Case Number:
USM Number: 22011-084
Beau Brindley, Retained
Defendant's Attorney

THE DEFENDANT:

D pleaded guilty to count(s)
D pleaded nolo contendere to count(s)
which was accepted by the court.
~was found guilty on count(s)
after a plea of not guilty,

1-20, 22-26, 28-68, 69, & 70

--~----~--~~-------------------------------------------------------

The defendant is adjudicated guilty of these offenses:

Title & Section

Nature of Offense

Offense Ended

21 :843(a)(3) and 843
(d}(l )

Obtain Controlled Substance by Fraud- Oxycodone

11 /1 8/2014

21:843(a)(3) and 843
(d)(! )

Obtain Controlled Substance by Fraud- Oxycodone

3/ 17/2015

2

21 :843(a)(3) and 843
(d)(! )

Obtain Controlled Substance by Fraud- Oxycodone

511 9/2015

3

The defendant is sentenced as provided in pages 2 through ____1_0 ___ of this judgment. The sentence is imposed pursuant to
the Sentencing Reform Act of 1984.

D The defendant has been found not guilty on count(s)
D Count(s) --------------------------- Dis

D

are dismissed on the motion of the United States.

It is ordered that the defendant must notifY the United States attorney for this district within 30 days of any change of name, residence
or mailing address until all fines, restitution 1 costs, and special assessments imposed by this judgment are full y paid. If ordered to pay restitution,
the defenaant must notifY the court and Umted States attorney of material changes in economic circumstances.
2112/2019
Date of Imposition of Judgment

Signature of Judge

Elizabeth K. Dillon, United States District Judge
Name and Title of Judge

Date

APPENDIX B

A44

I

I

Case 7:17-cr-00079-EKD Document 221 Filed 02/20/19 Page 2 of 10 Pageid#: 2676
AO 245B

(Rev. 2/18- VAW Additions 05/17) Judgment in a Criminal Case
Sheet lA

Judgment-Page

FRANK CRAIG PURPERA, JR.
DEFENDANT:
CASE NUMBER: DVAW717CR000079-00I

10

2
-- of

ADDITIONAL COUNTS OF CONVICTION
Title & Section

Nature of Offense

Offense Ended

Count

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Oxycodone

5/ 19/2015

4

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Oxycodone

6/9/2015

5

21:843(a)(3) and 843
(d)(1)

Obtain Controlled Substance by Fraud- Oxycodone

7/28/2015

6

21 :843(a)(3 ) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Oxycodone

10/28/2015

7

21:843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Oxycodone

11 /30/2015

8

21:843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Oxycodone

1118/2016

9

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud- Oxycodone

2117/2016

10

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Oxycodone

3/4/2016

II

21 :843(a)(3) and 843
(d)(1)

Obtain Controlled Substance by Fraud - Oxycodone

4/7/2016

12

21:843(a)(3) and 843
(d)(!)

Obtain Controlled Substance by Fraud - Oxycodone

5/4/2016

13

21 :843(a)(3) and 843
(d)(1)

Obtain Controlled Substance by Fraud - Oxycodone

6/6/2016

14

21 :843(a)(3) and 843
(d)(1)

Obtain Controlled Substance by Fraud - Oxycodone

7/5/2016

15

21:843(a)(3) and 843
( d)(1 )

Obtain Controlled Substance by Fraud - Oxycodone

7/28/2016

16

21:843(a)(3) and 843
(d)(1)

Obtain Controlled Substance by Fraud - Hydrocodone

8114/2014

17

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Hydrocodone

8114/2014

18

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Hydrocodone

11118/2014

19

21 :843(a)(3) and 843
(d)(1 )

Obtain Controlled Substance by Fraud - Hydrocodone

3/17/2015

20

21 :843(a)(3) and 843
( d)(1)

Obtain Controlled Substance by Fraud - Testosterone

1111 /2016

22

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Testosterone

1/ 11 /2016

23

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Testosterone

3/8/2016

24

21:843(a)(3) and 843
(d)( 1)

Obtain Controlled Substance by Fraud - Testosterone

3/8/2016

25

21:843(a)(3) and 843
(d)(1)

Obtain Controlled Substance by Fraud - Testosterone

8/4/2016

26

21:843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Alprazolam

2/6/2015

28

A45

Case 7:17-cr-00079-EKD Document 221 Filed 02/20/19 Page 3 of 10 Pageid#: 2677
AO 2458

(Rev. 2/18 - VAW Additions 05117) Judgment in a Criminal Case
Sheet 1A
Judgment-Page

FRANK CRAIG PURPERA, JR.
DEFENDANT:
CASE NUMBER: DVAW717CR000079-001

10

3
-- of

ADDITIONAL COUNTS OF CONVICTION
Title & Section

Nature of Offense

Offense Ended

Count

21:843(a)(3) and 843
(d)( 1)

Obtain Controlled Substance by Fraud - Alprazolam

9/28/2015

29

21:843(a)(3) and 843
(d)( 1)

Obtain Controlled Substance by Fraud - Alprazolam

10/28/2015

30

21:843(a)(3) and 843
(d)(l)

Obtain Controlled Substance by Fraud - Alprazolam

12/14/2015

31

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Alprazolam

1/11 /2016

32

21:843(a)(3) and 843
(d)(l)

Obtain Controlled Substance by Fraud - Alprazolam

2/17/2016

33

21:843(a)(3) and 843
( d)(l)

Obtain Controlled Substance by Fraud - Alprazolam

3/8/2016

34

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Alprazolam

4/7/2016

35

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud- Alprazolam

5/4/2016

36

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Alprazolam

6/7/2016

37

21:843(a)(3) and 843
(d)( 1)

Obtain Controlled Substance by Fraud - Alprazolam

7/5/2016

38

21:843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud- Alprazolam

8/4/2016

39

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Diazepam

10/31 /2014

40

21 :843(a)(3) and 843
(d)( 1)

Obtain Controlled Substance by Fraud -Diazepam

1/20/2015

41

21:843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud -Diazepam

3/ 12/2015

42

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Diazepam

8/ 12/2015

43

21 :843(a)(3) and 843
(d)( 1)

Obtain Controlled Substance by Fraud - Diazepam

9/28/2015

44

21:843(a)(3) and 843
(d)( 1)

Obtain Controlled Substance by Fraud - Diazepam

10/28/2015

45

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Diazepam

12/14/2015

46

21 :843(a)(3) and 843
(d)( 1)

Obtain Controlled Substance by Fraud - Diazepam

1/ 11 /2016

47

21:843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Diazepam

2/ 17/2016

48

21 :843(a)(3) and 843
(d)( 1)

Obtain Controlled Substance by Fraud - Diazepam

3/8/2016

49

21:843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Diazepam

4/7/2016

50

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud -Diazepam

5/4/2016

51

A46

Case 7:17-cr-00079-EKD Document 221 Filed 02/20/19 Page 4 of 10 Pageid#: 2678
AO 245B

(Rev. 2/18- VAW Additions 05/17) Judgment in a Criminal Case
Sheet lA
Judgment-Page _ _
4 _ of _

___.:cl..::...
O_ _

DEFENDANT:
FRANK CRAIG PURPERA, JR.
CASE NUMBER: DVAW717CR000079-00 I

ADDITIONAL COUNTS OF CONVICTION
Title & Section

Nature of Offense

Offense Ended

Count

21:843(a)(3) and 843
(d)(1)

Obtain Controlled Substance by Fraud - Diazepam

617/2016

52

21 :843(a)(3) and 843
(d)(!)

Obtain Controlled Substance by Fraud -Diazepam

7/5/2016

53

21 :843(a)(3) and 843
(d)( 1)

Obtain Controlled Substance by Fraud - Diazepam

8/4/2016

54

21:843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Tramadol

2/6/2015

55

21:843(a)(3) and 843
( d)(1)

Obtain Controlled Substance by Fraud - Tramadol

9/28/2015

56

21:843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Tramadol

9/28/2015

57

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Tramadol

10/28/2015

58

21 :843(a)(3) and 843
( d)(1)

Obtain Controlled Substance by Fraud- Tramadol

10/28/2015

59

21:843(a)(3) and 843
(d)(1)

Obtain Controlled Substance by Fraud - Tramadol

12/ 14/2015

60

21:843(a)(3) and 843
( d)(1)

Obtain Controlled Substance by Fraud - Tramadol

12/14/2015

61

21:843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Tramadol

1/1 1/2016

62

21:843(a)(3) and 843
(d)(1)

Obtain Controlled Substance by Fraud - Tramadol

1/ 11 /2016

63

21 :843(a)(3) and 843
(d)(1)

Obtain Controlled Substance by Fraud - Tramadol

2/1 7/2016

64

21 :843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Tramadol

3/8/2016

65

21:843(a)(3) and 843
(d)( I)

Obtain Controlled Substance by Fraud - Tramadol

3/8/2016

66

21:843(a)(3) and 843
(d)(!)

Obtain Controlled Substance by Fraud - Tramadol

417/2016

67

21 :843(a)(3) and 843
(d)(1)

Obtain Controlled Substance by Fraud - Tramadol

417/201 6

68

21 :843(a)(4)(a) & (d)
(1)

Omitting Material Information Required to be Kept

8/26/2016

69

18 : 1001 (a)(2)

False Statement

8/26/2016

70

A47

Case 7:17-cr-00079-EKD Document 221 Filed 02/20/19 Page 5 of 10 Pageid#: 2679
AO 2458

(Rev. 211 8- VA W Additions 0511 7) Judgment in Criminal Case

Sheet 2 - Im risorunent
Judgment - Page _....;5;___ of

D EFENDANT:
FRANK CRAIG PURPERA, JR.
CASE NUMBER: DVAW717CR000079-001

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of:
Twenty (20) Months; to consist oftwenty (20) months on each of counts 1-20, 22-26,28-70 to run concurrently.

~ The court makes the following recommendations to the Bureau of Prisons:

1) The Defendant be housed a FCI Oakdale, Louisiana, near his fam ily.

~ The defendant is remanded to the custody of the United States Marshal.

0

0

The defendant shall surrender to the United States Marshal for this district:

0

at

0

as notified by the United States Marshal.

-------------------- 0

a.m.

0

on

p.m.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

0
0
0

before

on

-------------------------

as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows :

Defendant delivered on

to

a _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ , with a certified copy of this judgment.

UNITED STATES MARSHAL
By

DEPUTY UNITED STATES MARSHAL

A48

10

Case 7:17-cr-00079-EKD Document 221 Filed 02/20/19 Page 6 of 10 Pageid#: 2680
AO 2458

(Rev. 2/ 18- VA W Additions 0511 7) Judgment in a Criminal Case
Sheet 3 - Supervised Release
Judgment-Page

6

of

10

DEFENDANT:
FRANK CRAIG PURPERA, JR.
CASE NUMBER: DV AW717CR000079-00 1

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of :
Two (2) Years; to consist of 1 year on each of counts 1-20, 22-26, & 28-69, and 2 years on count 70, to run concurrently.

MANDATORY CONDITIONS
1.
2.
3.
4.

5.
6.
7.

You must not commit another federal , state or local crime.
You must make restitution in accordance with sections 3663 and 3663A, or any other statute authorizing a sentence of
restitution. (check if applicable)
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
0 The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if applicable)

0

[8] You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
0 You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U. S.C. § 20901 , et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you reside, work,
are a student, or were convicted of a qualifying offense. (check if applicable)
0 You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

A49

Case 7:17-cr-00079-EKD Document 221 Filed 02/20/19 Page 7 of 10 Pageid#: 2681
AO 2458

(Rev. 2/1 8- YAW Additions 05/ 17) Judgment in a Criminal Case
Sheet 3A- Supervised Release
Judgment-Page

7

of

10

DEFENDANT:
FRANK CRAIG PURPERA, JR.
CASE NUMBER: DVAW717CR000079-00 1

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.

9.
10.
11 .
12.

13 .

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony , you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm , ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers ).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.

Defendant's Signature

Date

A50

-------------------------

Case 7:17-cr-00079-EKD Document 221 Filed 02/20/19 Page 8 of 10 Pageid#: 2682
AO 245 8

(Rev. 2/18 - VA W Additions 05/17) Judgment in a Criminal Case
Sheet 3D- Supervised Release
Judgment-Page

DEFENDANT:
FRANK CRAIG PURPERA, JR.
CASE NUMBER: DVAW717CR000079-001

8

of _ _. :. ;10;;___

SPECIAL CONDITIONS OF SUPERVISION
1) Following release from imprisonment, the court will evaluate defendant's status and determine whether, after incarceration, drug
rehabilitation is necessary and appropriate. If additional rehabilitation is deemed appropriate, the defendant shall participate in a program as
designated by the court, upon consultation with the probation officer, until such time as the defendant has satisfied all the requirements of the
program.
2) The defendant shall reside in a residence free of firearms, ammunition, destructive devices, and dangerous weapons.
3) The defendant shall submit to warrantless search and seizure of person and property as directed by the probation officer, to determine
whether the defendant is in possession of firearms or illegal controlled substances.

A51

Case 7:17-cr-00079-EKD Document 221 Filed 02/20/19 Page 9 of 10 Pageid#: 2683
AO 2458

(Rev . 2/ 18- VA W Additions 05/ 17) Judgment in a Criminal Case
Sheet 5 - Criminal Monetary Penalties
Judgment-Page

DEFEND A T:
FRANK CRAIG PURPERA, JR.
CASE NUMBER: DVAW717CR000079-001

9

of

10

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

Assessment

JVTA Assessment*

$6,800.00

TOTALS

$

Fine

Restitution

$ 34,000.00
$
Consisting of $500 on each of
Counts 1-20,22-26, and 28-70.
An Amended Judgment in a Criminal Case (AO 245C) will be entered

D

The determination of restitution is deferred until
---after such determination.

D

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise
in the priority order or percentage payment column below. However, pursuant to 18 U.S.C § 3664(i), all nonfederal victims must be
paid before the United States is paid.

Name of Payee

Total Loss**

Restitution Ordered

Priority or Percentage

TOTALS

D

Restitution amount ordered pursuant to plea agreement $

D

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

D

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

D
D

the interest requirement is waived for the
the interest requirement for the

D

fine

D

fine

D

D

restitution.

restitution is modified as follows :

*Justice for Victims of Trafficking Act of2015, Pub. L. No. 114-22.
**Findings for the total amount of losses are required under Chapters 109A, 110, 11 OA, and 113A of Title 18 for offenses committed
on or after September 13, 1994, but before April 23, 1996.

A52

Case 7:17-cr-00079-EKD Document 221 Filed 02/20/19 Page 10 of 10 Pageid#: 2684
AO 2458

(Rev. 211 8- VA W Additions 05117) Judgment in a Criminal Case
Sheet 6 - Schedule of Payments

DEFENDANT:

FRANK CRAIG PURPERA, JR.

Judgment- Page _!Q_ of

_1_0_

CASE NUMBER: DVAW717CR000079-001

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, the total criminal monetary penalties are due immediately and payable as follows :
A

[8]

Lump sum payment of$ 6,800
immediately, balance payable
------O not later than
, or

0
BO

co

in accordance

0

C,

0

D,

0

Payment to begin immediately (may be combined with

E,

0

~ F or,

C,

0

0
D,

G below); or

0

F, or

0

G below); or

Payment in equal
(e.g. , weekly, monthly, quarterly) installments of$
over a period of
(e.g.,
months
or
years),
to
commence
(e.g.,
30
or
60
days)
after
the
date
of
this
judgment; or
----,--

DO

Payment in equal
(e.g., weekly, monthly, quarterly) installments of$
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a
--.,-----:term of supervision; or

EO

(e.g., 30 or 60 days) after release from
Payment during the term of supervised release will commence within
imprisonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that time; or

F ~

During the term of imprisonment, payment in equal
monthly
(e.g., weekly, monthly, quarterly) installments of
$
25
, or
50
% of the defendant's income, whichever is . greater
_,_to commence
60
(e.g., 30 or
monthly
(e.g. , weekly, monthly, quarterly)
60 days) after the date of this judgment; AND payment in equal
installments of$
2 000
during the term of supervised release, to commence
60
(e.g. , 30 or 60 days)
after release from imprisonment.
Special instructions regarding the payment of criminal monetary penalties:

G

0

Any installment schedule shall not preclude enforcement of the restitution or fine order by the United States under 18 U.S .C §§ 3613 and
3664(m).
Any installment schedule is subject to adjustment by the court at any time during the period of imprisonment or supervision, and the defendant
shall notify the probation officer and the U .S. Attorney of any change in the defendant's economic circumstances that may affect the
defendant's ability to pay.
All criminal monetary penalties shall be made payable to the Clerk, U.S. District Court, 210 Franklin Rd. , Suite 540, Roanoke, Virginia 24011 ,
for disbursement.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
Any obligation to pay restitution is joint and several with other defendants, if any, against whom an order of restitution has been or will be
entered.

0

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount, and
corresponding payee, if appropriate.

0

The defendant shall pay the cost of prosecution.

0

The defendant shall pay the following court cost(s):

0

The defendant shall forfeit the defendant's interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

A53

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 1 of 33 Pageid#: 1783

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
UNITED STATES OF AMERICA,
v.
FRANK CRAIG PURPERA, JR.,
Defendant.

)
)
)
)
)
)
)

Criminal Action No. 7:17-cr-00079
By: Elizabeth K. Dillon
United States District Judge

MEMORANDUM OPINION
Pending before the court are several post-trial motions by defendant Frank C. Purpera, Jr.
(Purpera). While still represented by his trial counsel, Purpera filed motions for acquittal and for
a new trial. (Dkt. Nos. 122, 124.) Approximately one month after those motions were filed, new
counsel substituted in for trial counsel. New counsel filed a supplemental motion for new trial
on August 6, 2018, raising as a new ground that trial counsel labored under a conflict of interest
that resulted in a violation of Purpera’s Sixth Amendment right to counsel. (Dkt. No. 165.) All
three of those motions were argued before the court on August 13, 2018. At that time, defense
counsel indicated that he adopted the motions of prior defense counsel, in addition to the newer
ground asserted. Thereafter, defendant advanced additional arguments as to the conflict-ofinterest issue (Dkt. No. 174), to which the United States responded.

1

1

Technically, neither of the supplemental motions for new trial were filed within the extended time for
doing so as granted by the court, which expired on March 15, 2018. Fed. R. Crim. P. 33(b)(2) (allowing fourteen
days to file); (Dkt. No. 121 (oral order granting defendant’s motion to extend that time until March 15, 2018).)
They were both filed after that date. Nonetheless, the government did not challenge those motions on timeliness
grounds but instead addressed them on their merits. Thus, it has waived any challenge to Purpera’s failure to abide
by the deadline, which is not jurisdictional. Eberhart v. United States, 564 U.S. 12, 18 (2005) (reasoning that Rule
33 is a non-jurisdictional claim-processing rule that may be forfeited if the government fails to raise the issue before
the court rules on the merits of the motion).

APPENDIX C

A54

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 2 of 33 Pageid#: 1784

All of these motions are pending before the court and addressed herein. For the reasons
discussed below, the court will deny all of Purpera’s motions with the exception of the motion
for judgment of acquittal with regard to Count 21, which it will grant. The court will also
conditionally grant the motion for new trial as to Count 21.
I. BACKGROUND
At trial, the jury found Purpera guilty on all 69 counts in the indictment, which consisted
of Counts 1 through 26 and 28 through 70.2 Counts 1 through 26 and 28 through 68 charged him
with knowingly and intentionally acquiring and obtaining possession of controlled substances by
misrepresentation, fraud, forgery, deception, or subterfuge, in violation of 21 U.S.C. § 843(a)(3).
Specifically, the government charged that Purpera, a physician, made materially false statements
to a drug supplier by denying that any of the controlled substances were used by him personally,
by falsely denying that he used any of the controlled substances in the treatment of his spouse or
family or friends, and by falsely asserting that the controlled substances were administered to his
patients, in some cases for “presurgical anxiety” and “post surgical pain.” Each count involved
different dates and substances, including oxycodone, hydrocodone, testosterone, alprazolam,
diazepam, and tramadol.
Count 69 charged him with knowingly or intentionally omitting material information
from a report, record, or other document required to be made and kept to document the
disposition of controlled substances, in violation of 21 U.S.C. § 843(a)(4)(A). Lastly, Count 70
charged him with willfully and knowingly making a materially false, fictitious, or fraudulent
statement or representation to a DEA Diversion Investigator on or about August 26, 2016, in
violation of 18 U.S.C. § 1001(a)(2). Specifically, Count 70 alleged that he told the investigator
that he recorded the controlled substances he administered to patients in their patient files and
2

There was no Count 27 in the indictment.

2

A55

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 3 of 33 Pageid#: 1785

that he maintained a separate controlled substance log and report, both of which he knew to be
false and both of which were false.
Additional facts relevant to each of the motions will be discussed in context.
II. DISCUSSION
A. Motion for Judgment of Acquittal
In his first motion, Purpera moves the court for a judgment of acquittal on Counts 1–6,
21, 28, 40–43, 69, and 70. As to all but counts 69 and 70, he argues that he is entitled to
acquittal because the controlled substances at issue in those counts were not obtained as a result
of any related fraudulent statement. As to Counts 69 and 70, he argues that the government
failed to present sufficient evidence for a rational finding of guilt.
1. Standard of review
Purpera’s motion for judgment of acquittal is made pursuant to Federal Rule of Criminal
Procedure 29. That rule provides that “the court on the defendant’s motion must enter a
judgment of acquittal of any offense for which the evidence is insufficient to sustain a
conviction.” Fed. R. Crim. P. 29(a). “A defendant challenging the sufficiency of the evidence
faces a heavy burden . . . . ” United States v. Young, 609 F.3d 348, 355 (4th Cir. 2010) (internal
citations and alterations omitted). Specifically, “[t]he jury’s verdict must stand unless . . . no
rational trier of fact could have found the essential elements of the crime beyond a reasonable
doubt.” United States v. Royal, 731 F.3d 333, 337 (4th Cir. 2013) (citing Young, 609 F.3d at
355).
Put differently, the motion should be denied if the jury’s verdict on any given charge is
supported by “substantial evidence.” United States v. Alvarez, 351 F.3d 126, 129 (4th Cir.
2003). “[S]ubstantial evidence is evidence that a reasonable finder of fact could accept as
adequate and sufficient to support a conclusion of a defendant’s guilt beyond a reasonable
3

A56

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 4 of 33 Pageid#: 1786

doubt.” United States v. Burgos, 94 F.3d 849, 862 (4th Cir. 1996). In addressing a claim of
insufficient evidence, moreover, this court must “view the evidence and the reasonable
inferences to be drawn therefrom in the light most favorable to the [g]overnment . . . . ” Young,
609 F.3d at 355 (citation omitted).
2. Counts 1–6, 28, 40–43
With regard to Purpera’s challenge to Counts 1–6, 28, and 40–43, all of those counts
were based on the United States’ allegation that Purpera made materially false statements to his
supplier of controlled substances, Henry Schein, Inc. (Henry Schein).
These counts were based on substances that were dispensed pursuant to the April 16,
2014 form Purpera submitted to Henry Schein (Gov’t Ex. 7-1a, Dkt. No. 114-31). Purpera
argues that he truthfully responded “no” to the Henry Schein form question, “Do you use any of
the controlled drug items you order to treat family members or friends?” Specifically, he
contends that his answer was truthful because, although he was treating his now-wife, Rebecca
Mosig Purpera (Mosig), was not married to her at the time he completed the form. Instead, they
were married ten days later, on April 26, 2014. Thus, he argues that she was not a “family
member” or a “friend.” Even if she could be considered a friend, Purpera points out that Shaun
Abreu, a Henry Schein representative, conceded on cross-examination that the “friend” part of
the inquiry was later taken off the form because state laws do not address treating friends,
because doctors can be friends with their patients, and because a “friend” standard was simply
unworkable. Based on this, Purpera argues that it was “immaterial” to Henry Schein whether he
answered “yes” or “no” to that question, at least insofar as it referred to “friends.”
To the extent Purpera is arguing that his soon-to-be wife was not a “friend,” the court
finds that argument ridiculous. Certainly, there is substantial evidence from which a reasonable

4

A57

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 5 of 33 Pageid#: 1787

jury could conclude that she was his friend ten days before marriage. With regard to his
argument that it did not matter to Henry Schein whether he was treating friends, there was
“substantial evidence” to the contrary. He argues that the government had to prove causation
and specifically that, but for the misrepresentation, Henry Schein would not have transferred the
substances to him. Even under a lesser standard of causation (proximate cause or substantially
influence), he contends, there was insufficient evidence of causation. But Abreu testified that
Henry Schein would not have shipped the controlled substances requested on that form had
Purpera answered “yes” to that question. Abreu also testified that the form was important and
relevant in Henry Schein’s decision. Thus, regardless of the later changes to the form to omit the
reference to “friend,” there is “substantial evidence” of causation.
3. Count 21
Count 21, concerning testosterone, was also based on the United States’ allegation that
Purpera made materially false statements to Henry Schein, and Purpera addresses this count
separately.3 He argues that he made no misrepresentations because he stated on the Addendum
(which was the first form requesting testosterone in August 2014 (Gov’t Ex. 7-2a, Dkt. No. 11421)) that it was being used to treat “low testosterone” and that was true; it was being used to treat
his low testosterone. The April 16, 2014 form Purpera submitted to Henry Schein (Gov’t Ex. 71a, Dkt. No. 114-31), asked in Question 16, “Do you use any of the controlled drug items you
order for your own personal use?” Purpera answered, “No.” But, as he points out, he did not
order testosterone in April 2014. He argues that there was no requirement for him to go back
and update the original controlled substance form, and Mr. Abreu acknowledged that such an
obligation was not clearly stated. While his answers on the Addendum certainly implied that he

3

The government makes no argument specifically addressing Count 21. Rather, generally, it just notes
that the Henry Schein forms address Purpera’s medical practice and patients.

5

A58

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 6 of 33 Pageid#: 1788

was using testosterone to treat his patients’ low testosterone, an implication is not sufficient
evidence from which a jury could find that Purpera made a material misrepresentation to obtain
the testosterone from Henry Schein. For this reason, the court will grant Purpera’s motion for
judgment of acquittal as to Count 21.
4. Count 69
Purpera next challenges his conviction on Count 69, which alleges a violation of 21
U.S.C. § 827, due to Purpera’s failure to keep records. But there is an exception to the recordkeeping requirement. Specifically, records are not required with regard to administration of
controlled substances in the lawful course of professional practice “unless the practitioner
regularly engages in the dispensing or administering of controlled substances and charges his
patients, either separately or together with charges for other professional services, for substances
so dispensed or administered . . . . ” 21 U.S.C. § 827(c)(1)(B); 21 C.F.R. §1304.03(b)–(d).
Purpera argues that Count 69 is limited to his failure to keep records of administered
controlled substances, and the government’s theory was that he did not administer these
substances to his patients. Alternatively, he argues that he qualified for the recordkeeping
exception because there was evidence that he regularly engaged in dispensing or administering
and that he did not charge patients for medications, all of which was in the lawful course of
professional practice. (See Instr. No. 24.) As a whole, Purpera argues that the evidence showed,
at most, that his accounting failure was a state recordkeeping violation, which was not enough to
show practice outside the lawful course to establish a federal violation.
The government responds that 1) Jury Instruction No. 22 states that a practitioner who
4

“manufactures, distributes, or dispenses” is required to maintain records, and 2) Purpera stated

4

As set forth in Jury Instruction No. 27, dispensing does include administration. (Instr. No. 27.)

6

A59

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 7 of 33 Pageid#: 1789

in his letter to the Department of Health Professions that he did administer the controlled
substances to himself and to his wife. (Gov’t Ex. 8-2R, Dkt. No. 114-36.) Additionally, the
government argues that the recordkeeping exception only applies when the substances are
administered in the lawful course of professional practice, which was not the case here with him
administering and prescribing to his wife.
There was substantial evidence in the form of Purpera’s letter to the Department of
Health Professions that he administered the “vast majority” of controlled substances he obtained
to himself and his wife. He was required to maintain records of “each such substance
manufactured, received, sold, delivered, or otherwise disposed of by him,” (Instr. No. 22, Dkt.
No. 109), unless he qualified for the exception. There was substantial evidence that Purpera did
not keep these records. Moreover, Dr. Burton testified that Purpera’s treatment of his wife, by
prescription and administration of controlled substances, was not within the course of
professional practice. Dr. Burton also testified that receipt of 10,000 pills without documentation
as to the disposition of those pills was outside the scope of professional practice. Thus, there
was substantial evidence from which a reasonable jury could find that Purpera did not administer
controlled substances “in the lawful course of professional practice” so that he did not fit within
the record-keeping exception. Moreover, Purpera admits in his briefing that there was evidence
that he acted outside the scope of lawful practice with regard to administration of controlled
substances regarding “his failure to abide state and federal recordkeeping requirements.” (Mem.
Supp. Mot for J. of Acquittal 17, Dkt. No. 123.)
For all of these reasons, the court will deny the motion for acquittal as to Count 69.

7

A60

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 8 of 33 Pageid#: 1790

5. Count 70
Purpera next argues that his conviction on Count 70 cannot stand. As to his statement
that he recorded the controlled substances he dispensed to patients in their patient files, he argues
this was true because lidocaine is a controlled substance under Virginia law, and he did record
lidocaine in his patient charts. Thus, his argument continues, his statement to Investigator
Armstrong that he recorded controlled substances he dispensed to patients in patient records was
not false.
The jury was entitled to conclude otherwise. Armstrong’s testimony made clear that the
discussion he had with Purpera did not involve lidocaine, but concerned the federally controlled
substances ordered from Henry Schein. Armstrong testified that he asked if the specific federal
controlled substances were recorded, and Purpera told him that they were. That was false. Thus,
the evidence amply supports the jury’s verdict on Count 70.
With regard to the second alleged false statement, which was that he maintained a
separate controlled substance dispensing log, Purpera contends that was immaterial because he
corrected his response within 30 seconds to one minute. The government contends that
Purpera’s answer changed after the agent continued to ask follow-up questions and it became
obvious that the agent was going to want to see the log. It reasons that “[t]he fact that the agent
was dogged and refused to be put off does not absolve Purpera of his liability for making false
statements to the agent.” (Resp. to Mot. New Trial 7, Dkt. No. 131.)
The court agrees with the government’s analysis as to this second statement. It was a
false statement, even if he quickly corrected it under pressure from questioning. Moreover, even
if Purpera had made only the first false statement to Armstrong, that would have been sufficient
to convict him of Count 70.

8

A61

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 9 of 33 Pageid#: 1791

For all of the reasons described above, then, Purpera’s motion for judgment of acquittal
will be granted as to Count 21 only, and denied as to Counts 1–6, 28, 40–43, 69, and 70.
B. Motion for New Trial
1. Standard of review
Federal Rule of Civil Procedure 33 allows a district court, “[u]pon the defendant’s
motion, [to] vacate any judgment and grant a new trial if the interest of justice so requires.”
The standard for granting a new trial depends, in part, on the grounds advanced by the moving
party, but a district court “should exercise its discretion to grant a new trial sparingly, and it
should do so only when the evidence weighs heavily against the verdict.” United States v.
Chong Lam, 677 F.3d 190, 203 (4th Cir. 2012) (internal citations and alterations omitted).
When considering a motion for new trial on the grounds that the jury’s verdict was against the
weight of the evidence, moreover, the “court is not constrained by the requirement that it view
the evidence in the light most favorable to the government. Thus it may evaluate the credibility
of the witnesses.” United States v. Arrington, 757 F.2d 1484, 1485 (4th Cir. 1985).
2. Jury’s findings not against the weight of the evidence
For the same reasons argued in his motion for acquittal, Purpera argues that the jury’s
findings went against the weight of the evidence on Counts 1–6, 21, 28, 40–43, 69, and 70.
Although the standard is different when addressing a motion for new trial (and more favorable to
the defendant), the court concludes that, even weighing the credibility of the witnesses, the jury’s
verdict should stand on all of those counts, except Count 21. Thus, for the reasons already
discussed with regard to Counts 1–6, 28, 40–43, 69, and 70, the court concludes Purpera is not
entitled to a new trial.

9

A62

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 10 of 33 Pageid#: 1792

With regard to Count 21, the court will conditionally grant a new trial for the same
reasons stated previously. See Fed. R. Crim. P. 29(d)(1).
3. Improper and prejudicial testimony and comment
Purpera next argues that the jury was exposed repeatedly to improper and prejudicial
testimony and comment because 1) the prosecutor interjected during Purpera’s closing argument
that Purpera “could have put on evidence to prove the point,” but the prosecution cannot
comment on a defendant’s decision not to testify; 2) the prosecution let false testimony go
uncorrected regarding treating and prescribing to family members under Virginia law, and
although the court gave a proper jury instruction on this point, “the damage had been done”; and
3) at trial the court allowed the government to elicit “bad character” testimony about Purpera’s
telling witnesses to respond to investigators by saying that they did not recall. He argues that
even if these errors were individually harmless, cumulatively, they affected the trial to the extent
that it was no longer fair.
The government responds that 1) its comment during Purpera’s closing argument did not
have anything to with Purpera’s decision not to testify; instead, this comment was a sustained
objection to defense counsel’s improper argument that it was Mosig who ordered the drugs, and
the court’s instruction that lawyers’ statements are not evidence cured any possible prejudicial
effect; 2) there was no false testimony, and Jury Instruction No. 26 made clear the distinction
between prescribing and administering under Virginia law; and 3) the evidence concerning
Purpera’s instructions to witnesses to say that they did not recall was properly admitted as
intrinsic to the charged offenses.

10

A63

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 11 of 33 Pageid#: 1793

a. Prosecutor’s comment during closing
During defense counsel’s closing argument, counsel stated that Purpera’s wife ordered
the controlled substances. The government objected, and that objection was sustained because
there was no evidence that she ordered the drugs. In making the objection, the government noted
that defense counsel could have called her to testify. So, the court agrees with the government
that its comment was not an improper comment on Purpera’s decision not to testify.
Additionally, the court instructed the jury that statements by counsel are not evidence. Even if
the remarks were improper, moreover, they would require retrial only if they “so infected the
trial with unfairness as to make the resulting conviction a denial of due process.” United States
v. Higgs, 353 F.3d 281, 330 (4th Cir. 2003) (quoting United States v. Mitchell, 1 F.3d 235, 240
(4th Cir. 1993)). Put differently, the remarks must have been both improper and “prejudicially
affected the defendant’s substantial rights so as to deprive the defendant of a fair trial.” Id.
(citations omitted). Factors to be examined in determining prejudice include:
(1) the degree to which the prosecutor’s remarks have a tendency
to mislead the jury and to prejudice the accused; (2) whether the
remarks were isolated or extensive; (3) absent the remarks, the
strength of competent proof introduced to establish the guilt of the
accused; and (4) whether the comments were deliberately placed
before the jury to divert attention to extraneous matters.
Id. (citation omitted).
Considering these factors and applying them to the prosecutor’s interjection, the court
does not believe that the interjection “so infected the trial with unfairness” that Purpera was
denied due process. See Higgs, 353 F.3d at 330. Thus, a new trial is not warranted on this
ground.

11

A64

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 12 of 33 Pageid#: 1794

b. Prosecution’s presentation of “false” evidence
Purpera also asserts that the prosecution let “false” testimony go uncorrected at trial and
that this warrants a new trial because it resulted in a due process violation. Specifically, the
prosecution elicited testimony from three witnesses (Agent Armstrong, Shaun Abreu, and Dr.
John Burton), to the effect that in Virginia, doctors should not, in the legitimate course of
practice, treat family members, or should do so only in emergencies. With regard to this
testimony, a review of Virginia law concerning a doctor’s treating and prescribing for self or
family members is warranted. The Virginia Administrative Code regarding treating and
prescribing for self and family states that treating “shall be based on a bona fide practitionerpatient relationship” and a “patient record” documenting the same should be maintained, and that
“[a] practitioner shall not prescribe a controlled substance to himself or a family member, other
than Schedule VI . . . unless the prescribing occurs in an emergency situation . . . . ” 18 VAC 8520-25. Virginia law, however, makes a distinction between prescribing and administering. See
Virginia Code § 54.1-3401. Thus, there is no Virginia statute or regulation prohibiting the “inoffice administration” of controlled substances to a family member.
Purpera acknowledges that the court made this clear in the jury instructions and, in Jury
Instruction No. 26, specifically instructed the jury that there is a distinction between prescribing
and administering under Virginia law. Notably, “[a] jury is presumed to follow its instructions.”
Weeks v. Angelone, 528 U.S. 225, 234 (2000) (citation omitted). But Purpera argues that the
damage had already been done at that point, especially since the supposed impropriety of
Purpera’s administration of drugs to his spouse was a central theme in the government’s case.
(Mem. Supp. Mot. New Trial 3–4, Dkt. No. 125.) Purpera relies on two Supreme Court cases
wherein the Court opined that perjured testimony, deliberately solicited or left uncorrected,

12

A65

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 13 of 33 Pageid#: 1795

violates due process. See Napue v. Illinois, 360 U.S. 264 (1959), and Mooney v. Holohan, 294
U.S. 103, 112 (1935) (noting the deception of the court and the jury).
Given the absence of perjured testimony, the admittedly proper jury instructions, and the
fact that neither the court nor the jury was deliberately or inadvertently deceived so as to violate
Purpera’s due process rights, the motion for new trial will be denied as to Count 69.
c. Testimony concerning Purpera’s coaching of witnesses
Finally, the court disagrees that evidence that Purpera told his employees to say “I do not
recall,” when questioned by agents, was inadmissible Rule 404(b) evidence and necessitates a
new trial. While the witnesses differed slightly in their accounts and one seemed unsure of
whether the conversation occurred during the first or second DEA visit, both were steadfast in
their testimony that Purpera had made such a statement to them. It was reliable evidence.
Additionally, contrary to Purpera’s contention, the Fourth Circuit has held that evidence of postscheme conduct that shows a guilty mind (such as shredding documents or intimidating
witnesses) can nonetheless be intrinsic evidence not subject to the additional requirements of
Rule 404(b). United States v. Bajoghli, 785 F.3d 957, 965–66 (4th Cir. 2015). Moreover, the
court does not believe it was unduly prejudicial. See id. at 966 (where “evidence is probative of
an element of the offense charged, ‘the balance under Rule 403 should be struck in favor of
admissibility, and evidence should be excluded only sparingly.’”) (citation omitted).5 Thus, no

5

The Fourth Circuit also has recognized that “[e]vidence of witness intimidation is admissible to prove
consciousness of guilt . . . under Rule 404(b), if the evidence (1) is related to the offense charged and (2) is reliable.”
United States v. Van Metre, 150 F.3d 339, 352 (4th Cir. 1998) (citation omitted). Both of those prongs are met here.
And the court concludes that Rule 403 of the Federal Rules of Evidence does not otherwise bar its introduction.
Thus, the evidence would also have been admissible under 404(b). Purpera complains, however, that the evidence
was not identified in the government’s 404(b) notice, and so it should have been excluded. The government does
not respond to this precise argument. But even if Purpera did not have adequate notice, and thus it was error to
admit the (otherwise-admissible) evidence, the court cannot conclude that this testimony so infected the whole trial
that a new trial was required. There was ample evidence that Purpera committed the offenses as found by the jury’s
verdict, and no injustice would result from not allowing a new trial.

13

A66

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 14 of 33 Pageid#: 1796

new trial is warranted on this ground.
4. Erroneous jury instructions on Counts 1–68 and 69
Purpera next argues that the jury instructions for Counts 1–68 erroneously omitted an
instruction for “but for” causation and that Count 69 erroneously omitted an instruction on “good
faith,” i.e., that if a physician administers a drug in good faith, it is an absolute defense to the
charge of omitting material information for a record required to be kept.
The government responds that the instruction defining misrepresentation made it clear
that the false statement had to be capable of influencing the decision to provide the substance,
and that the instructions as to these counts were nearly identical to Purpera’s proposed
instructions. (Gov’t Resp. to Mot. New Tr. 13–15, Dkt. No. 131.) It also responds that good
faith is not a defense to the charge in Count 69 and that Purpera’s proffered instruction of good
faith was rejected in United States v. Hurwitz, 459 F.3d 463, 478 (4th Cir. 2006).
The but-for causation instruction offered by Purpera, which would have stated that the
jury could not find him guilty if “he still would have acquired or obtained possession regardless
of the misrepresentation,” is not supported by the greater weight of authority. See United States
v. Madden, 11-cr-879, 2012 WL 6000290, at *2 (N.D. Cal. Nov. 30, 2012) (describing circuit
split, seemingly recognizing Purpera’s causation standard as an “outlier” view, and noting that a
“majority” of courts have affirmed convictions where there was no direct evidence that the
misrepresentation caused the drugs to be given to the defendant); cf. United States v. Callahan,
801 F.3d 606, 622 (6th Cir. 2015) (assuming, without deciding, that a but-for causation standard
could apply). The parties did not present a case to the court from the Fourth Circuit on the issue,
and the court’s research did not disclose one. Nonetheless, this court agrees with the courts that
hold deception or subterfuge, even where the trickery occurred after the defendant’s acquisition

14

A67

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 15 of 33 Pageid#: 1797

of a drug, was sufficient to sustain a conviction under 21 U.S.C. § 843(a)(3). Thus, the court did
not err in declining Purpera’s but-for causation instruction.
As to the good faith defense, the Fourth Circuit has held it inapplicable to the offenses
here. Hurwitz, 459 F.3d at 478. Thus, again there was no error.
For these reasons, and for the reasons set forth by the court on the record in response to
Purpera’s objections to instructions, the court disagrees that its instructions were erroneous on
either ground raised by Purpera. He is not entitled to a new trial on this basis.
Having rejected all of the grounds advanced by Purpera in his first motion for a new trial,
the court will deny the motion, except that the court will conditionally grant it as to Count 21.
C. Supplemental Motion for New Trial Based on Conflict of Interest
In his supplemental motion, Purpera raises a new ground that he says entitles him to a
new trial. Specifically, Purpera asserts that his lead trial counsel, John Brownlee, labored under
a conflict of interest because Brownlee was himself being investigated by the United States
Attorney in connection with his communications with potential witnesses in Purpera’s case.
Purpera first argues that this conflict is significant enough that it requires a per se reversal and is
not waivable. Even if it is waivable, moreover, Purpera argues that he did not knowingly and
voluntarily waive his right to conflict-free counsel. Third and finally, Purpera contends that he
has shown an adverse effect on Brownlee’s performance as a result of the conflict.
Although the United States repeatedly notes that it is not admitting a conflict of interest
existed, it does not argue that there was not a conflict of interest. Nor do the United States’
filings engage in a meaningful way on the specific issues raised by Purpera. Instead, the United
States simply insists that any conflict was validly waived by Purpera. It further contends that,
even if the waiver were not valid, the conflict had no effect on the trial and thus should not result

15

A68

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 16 of 33 Pageid#: 1798

in Purpera getting a new trial. The court cannot agree, on the record before it, that there was a
valid waiver of the conflict. But the court agrees with the United States that Purpera cannot
establish an “adverse effect” on his attorneys’ performance as a result of the conflict. For this
reason, the motion for new trial based on the conflict will be denied.
1. Factual background concerning the conflict of interest
Trial in this matter was scheduled to begin on the morning of January 29, 2018. Four
days before trial, Purpera filed a renewed motion to dismiss the indictment with prejudice,
asserting new grounds of alleged prosecutorial misconduct. Specifically, in addition to grounds
asserted in a prior motion, Purpera’s renewed motion argued that the Drug Enforcement Agency
(DEA) had improperly issued a subpoena for the phone records of Brownlee, Purpera’s lead trial
counsel. (Mot. Dismiss & Mem. Supp., Dkt. Nos. 77–78.) In response, the United States argued
that there was no misconduct and that counsel’s telephone records were subpoenaed for the “very
limited and legitimate purposes arising from the need to determine whether Purpera’s defense
attorney, [John Brownlee,] was contacting a subpoenaed witness and encouraging her not to
testify.” (Resp. to Mot. Dismiss 1, Dkt. No. 88.) The government further noted that it sought
records “to determine whether attempts were being made to compromise a controlled substance
investigation and prosecution, specifically, whether defense counsel was communicating with
Witness A [Carla Craft], represented by her own counsel, during the same time period during
which Witness A [Carla Craft] was attempting to convince Witness B [Kayla Castleberry] to
delay her court appearance.” (Id. at 2.)
Specifically, there had been text communications between two grand jury witnesses (one
current employee and one former employee of Purpera’s)—Craft and Castleberry—on the day

16

A69

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 17 of 33 Pageid#: 1799

before Castleberry was to testify before the grand jury on December 14, 2017.6 Craft’s texts
discouraged Castleberry from testifying without having counsel to represent her. As part of the
text exchange, Craft wrote, “John is spazzing about you going alone tomorrow.” (Resp. to Mot.
to Dismiss, Ex. 1, at 3, Dkt. No. 88-1.) Craft also wrote to Castleberry, “It might be best to give
Morgan [another attorney] a call again and confirm, because John is like freaked out that you’re
walking into a lions den, but maybe Morgan and John haven’t communicated.” (Id.) The text
communications were provided to DEA Agent Slease by Castleberry, and Slease also
interviewed Craft regarding them.
The United States found out about the texts from Castleberry on December 14, 2017.
That same day, Purpera was indicted. The next week, a subpoena was issued for the phone
records. The United States denied that the records were sought to learn the substance of clientattorney communications, pointing out that the subpoena only requested times and dates of calls
and numbers dialed, and did not seek the content of any texts or phone conversations. In
Purpera’s reply, defense counsel noted skepticism that there was actually an active investigation
into Brownlee’s conduct, suggesting instead that this was simply an improper attempt by the
prosecution to either learn about privileged communications or force Purpera to obtain new
counsel on the eve of trial. As an alternative sanction to dismissal, Purpera requested that all
members of the prosecution team who had been exposed to the information be prohibited from
participating in the case.
The evening before trial, the United States filed a brief notice suggesting that defense
counsel may have a conflict of interest and asking that the court take up the matter at the time it
heard the motion to dismiss and other pre-trial motions. The court held a nearly three-hour
6

It is unclear to the court whether Castleberry was to testify regarding the crimes for which Purpera was
indicted on December 14 or for the ongoing investigation regarding alleged healthcare fraud of which all parties
were aware and which all parties specifically mentioned to the court.

17

A70

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 18 of 33 Pageid#: 1800

hearing on the morning of trial, in which it addressed all pending motions. (Minutes, Dkt. No.
96.)
In his opening remarks at that hearing, William Gould, another attorney from Brownlee’s
firm who also represented Purpera, referenced again what he believed to be the improper conduct
by the agents or prosecutors in the case, through the issuance of an allegedly overbroad subpoena
for telephone records for the number tied to Brownlee’s phone. But he also noted in his opening
that the government’s conduct had resulted in Purpera having a decision to make about whether
he continues with his current counsel or not.
During that hearing, the court heard testimony from Agent Slease, who had requested that
a subpoena issue for the phone records related to the number that he suspected might be
Brownlee’s. Slease noted that the number came back as registered only to Brownlee’s law firm,
Holland & Knight. After defense counsel raised the issue, however, the agent was able to
confirm from some of Brownlee’s emails that the number was used by him. When Slease
testified at the hearing, he specifically stated that the subpoena “was within a tampering
investigation” that was an “ongoing investigation” and was “still going on,” “beyond the matters
of the Court today.” (Pre-trial Mots. Hr’g Tr. 33, 54, 64, Dkt. No. 154.) The investigation was
said to be associated with Purpera’s then-current case. (Id. at 64.) Slease stated that he had sent
the telephone information over to the United States Attorneys’ office a week or two before trial,
but had not done anything else on the investigation, although he stated that he still had some
unspecified follow-up to do. Notably, Purpera was present throughout the hearing, and he heard
all the testimony presented.
All parties also made it clear to the court that Purpera was still under investigation for
healthcare fraud, separate and apart from the charges for which he was about to be tried.

18

A71

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 19 of 33 Pageid#: 1801

At the conclusion of testimony and argument on that motion, the court denied the motion
to dismiss. Specifically, the court explained that the subpoena was issued to investigate
communications after Castleberry expressed that she “felt intimidated, coerced, or at the very
least uncomfortable with regard to some messages she was getting . . . . ” (Pre-trial Mots. Hr’g
Tr. 103.) The court also noted that there was an ongoing investigation of Dr. Purpera with regard
to “other matters not involved in the case before us today.” (Id.) Because the court found that
there had not been any improper purpose, it concluded there had been no government
misconduct. The court also noted a lack of prejudice. The court thus denied the motion, noting
that the government would not—and did not intend to—introduce certain evidence it had
obtained that was unrelated to the case. (Id. at 103–04.)
At that point, the court asked Gould whether there was an unresolved issue about whether
Purpera wanted to continue with him, Brownlee, and their firm as counsel. At that point, the
court took about a twelve-minute recess to allow Purpera to communicate with his counsel about
the issue. (Id. at 105 (transcript showing break from 11:14 a.m. until 11:26 a.m.).)
When court reconvened, the court inquired with Purpera as to whether he was willing to
7

waive any conflict of counsel, and he said that he was. It is that waiver that the United States
relies on to argue that Purpera validly waived any conflict of counsel.
2. Applicable principles
The parties largely agree on the legal principles applicable to this type of conflict-ofinterest claim, and there are both Supreme Court and Fourth Circuit cases setting them forth.
First, there are some violations of the Sixth Amendment so egregious that they require per se
reversal, without any showing of prejudice. (See infra Section II-C-4). For the rest, a counsel’s
7

The entirety of the on-record discussion regarding the waiver is set forth in Section II-C-6 infra,
addressing the validity of the waiver.

19

A72

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 20 of 33 Pageid#: 1802

conflict of interest requires a new trial only if the defendant establishes that the conflict
adversely affected his attorney’s performance. With the showing of an adverse effect, an “actual
conflict” exists.
Two of the key Fourth Circuit cases in this area arose from two appeals in the same
criminal case. In the first, United States v. Nicholson, 475 F.3d 241 (4th Cir. 2007) (Nicholson
I), the Fourth Circuit reversed the district court’s ruling that counsel had no conflict of interest,
and remanded for a determination of whether the conflict adversely impacted counsel’s
performance. In United States v. Nicholson, 611 F.3d 191 (4th Cir. 2010) (Nicholson II), the
appellate court again reversed the district court, disagreeing with its determination that the
conflict had not adversely affected counsel’s performance. In Nicholson II, the court also
clarified the meaning of the term “actual conflict” and adopted two alternatives originally set
forth in Freund v. Butterworth, 165 F.3d 839, 860 (11th Cir. 1999) (en banc), for proving the
third factor of the adverse effect test.
In Nicholson II, the court acknowledged that it had previously used the term “actual
conflict” imprecisely, even in Nicholson I. The Nicholson II court explained and clarified that to
prevail on a “conflict of interest claim under the clarified standard, the petitioner must show that
(1) his lawyer operated under a “conflict of interest” and (2) that said conflict “adversely affected
his lawyer’s performance.” Nicholson II , 611 F.3d at 196 n.2. Thus, except in those cases
where the conflict is so great that it requires per se reversal, an “actual conflict” only exists when
a conflict adversely affects the lawyer’s performance. See id.
In making the determination of whether a conflict adversely affected the lawyer’s
performance, the court reviews the three so-called Freund factors first set forth in Freund, 165
F.3d 839, and adopted by the Fourth Circuit in Mickens v. Taylor, 240 F.3d 348, 361 (4th Cir.

20

A73

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 21 of 33 Pageid#: 1803

2001) (en banc), aff’d without consideration of this point, 535 U.S. 162 (2002). Specifically, to
show an adverse affect, a defendant must: (1) identify a plausible alternative defense strategy or
tactic that his defense counsel might have pursued; (2) establish that “the alternative strategy or
tactic was objectively reasonable under the facts of the case known to the attorney at the time of
the attorney’s tactical decision”; and (3) establish that the failure to pursue the strategy or tactic
was linked to the actual conflict. Nicholson I, 475 F.3d at 252 (quoting Mickens, 240 F.3d at
361). In assessing these three factors, no Strickland-type deference is owed to the attorney’s
tactical decisions. Furthermore, “[i]n establishing these three aspects of this test, the petitioner is
not required to show that the strategy or tactic not taken would have been successful, but only
that it would have been objectively reasonable.” Nicholson I, 475 F.3d at 252.
To establish the link required in the third step above, the defendant has two available
options. He can establish either that (1) the alternative tactic was “inherently in conflict with . . .
the attorney’s other loyalties or interests” or (2) otherwise show that the alternative tactic was
“not undertaken due to” the other loyalties or interests. Nicholson II, 611 F.3d at 212 (quoting
Freud, 165 F.3d at 860).
Having set forth the applicable legal principles, the court will turn first to the existence of
a conflict and then to whether an adverse effect needs to be shown and whether Purpera has
made that showing. Lastly, it will discuss the validity of Purpera’s waiver.
3. Brownlee had a conflict of interest due to his being the subject of an ongoing
investigation that was related to Purpera’s case.
First, as a factual matter, the court is constrained to note that, in the briefing and
argument on the subject, defense counsel repeatedly questioned whether there was actually any
intent on the part of the government to investigate Brownlee or whether that was simply being
offered as an excuse for obtaining his phone records. Indeed, Brownlee did not seem concerned
21

A74

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 22 of 33 Pageid#: 1804

that he faced any real criminal exposure as a result of the “investigation,” as made clear in the
documents counsel filed with the court. (See, e.g., Reply Mot. Dismiss 5, Dkt. No. 92 (“There
was no bona fide investigation into Mr. Brownlee. The decision to investigate a former U.S.
Attorney for potential obstruction of justice is not one that would have been made lightly. There
has been no evidence presented to defense counsel, whatever the government may have stated in
court, that any such decision was actually made.”); Hr’g Tr. 105 (Gould stating to the court that
“[w]e see no issue with regard to any conflict or potential conflict” and noting, with respect to
the conflict, that the record before the court is clear that, “while there may be an ongoing
investigation of Dr. Purpera on some other matters, there is not any concern….[T]he record
made it very clear that, to the extent there is an investigation, it’s of the healthcare fraud part.”).
Purpera’s counsel also seemed unconcerned that what he allegedly did—gave advice to a
grand jury witness to obtain counsel before testifying—was criminal or unethical. As counsel
explained:
According to the government, the recommendation that someone
get a lawyer before a grand-jury appearance is cause to open an
obstruction-of-justice investigation. That is an extraordinary
proposition. [] It would result in the commission of a dozen
felonies every time a sheaf of subpoenas left the doors of the U.S.
Attorney’s Office.
(Reply Mot. Dismiss 2, Dkt. No. 92) (internal footnote omitted). This would also explain why
defense counsel did not see any conflict of interest. Brownlee did not actually believe that he
was under investigation, nor was he worried about a possible criminal charge.
Despite all of these assertions by defense counsel, though, Agent Slease testified that
there was on ongoing investigation into possible witness tampering, and, although he did not
explicitly state that Brownlee was a target of the investigation, the context of his testimony
implied it at the very least. Slease also said on several occasions that the investigation was
22

A75

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 23 of 33 Pageid#: 1805

“ongoing.” Additionally, the court found that there was at least no misconduct in issuing the
subpoena, given the concerns expressed by Castleberry to a federal agent, thereby implicitly
ruling that it was part of a legitimate investigation. Thus, the record supports that Brownlee was
under investigation at the time of trial for potentially tampering with witnesses, although those
witnesses may have been testifying about other possible crimes, not the ones for which Purpera
was being tried. That being so, the question is whether that gave rise to a conflict of interest.
Purpera cites to a number of cases in which courts have held there was a conflict of
interest where a defendant’s attorney was being investigated for criminal activity by the same
prosecutor’s office prosecuting his client. These cases universally hold that an attorney under
investigation for a potential crime related to his client’s criminal prosecution labors under a
conflict. (See, e.g., Suppl. Post-Trial Mot. 9–10 (collecting authority).) The government cites no
cases to the contrary. In its initial response (Dkt. No. 168), the government focused entirely on
Purpera’s waiver and noted that it did not concede there was an actual conflict, but it did not
brief that issue. In its supplemental response (Dkt. No. 171), it again says it does not concede
there was a conflict, but contends that the issue need not be decided because Purpera cannot
show an adverse effect in any event.
In light of the undisputed authority relied on by Purpera, and the facts as the court has
found them, the court concludes that Brownlee’s knowledge that he was the subject of an
ongoing investigation for supposed witness tampering gave rise to a conflict of interest. As it
discusses next, the court concludes that the conflict does not require per se reversal, but instead
that Purpera must establish an adverse effect on his counsel’s representation, which he cannot do.

23

A76

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 24 of 33 Pageid#: 1806

4. The conflict is not so significant that it requires a per se reversal.
In United States v. Cronic, 466 U.S. 648 (1984), the Supreme Court recognized that a per
se Sixth Amendment violation may arise in three categories of cases: (1) when there is a
“complete denial of counsel . . . at a critical stage” of trial; (2) when counsel “entirely fails to
subject the prosecution’s case to meaningful adversarial testing”; and (3) when “the likelihood
that any lawyer, even a fully competent one, could provide effective assistance is so small that a
presumption of prejudice is appropriate without inquiry into the actual conduct of the trial.”
Id. at 659–60. A finding of per se prejudice is “an extremely high showing for a criminal
defendant to make.” Brown v. French, 147 F.3d 307, 313 (4th Cir. 1998).
Also,
[t]he Fourth Circuit has “cautioned against ‘broaden[ing] the perse prejudice exception to Strickland,’ warning that it would ‘add an
extra layer of litigiousness to ineffective assistance law’” and
allow courts to “‘regard trials . . . [not] through a particularized
lens [but] rather . . . through some broad-brush presumption of
prejudice.’” United States v. Smith, 640 F.3d 580, 589–90 (4th Cir.
2011) (quoting [Glover v. Miro, 262 F.3d 268, 277, 279 (4th Cir.
2001]).
Obilo v. United States, No. 1:09-cr-47, 2012 WL 12965626, at *10 (E.D. Va. July 6,
2012), report and recommendation adopted, No. 1:09-cr-47, 2013 WL 12221626 (E.D. Va. Feb.
13, 2013).
The first and second situations referenced in Cronic clearly are not applicable here.
Purpera’s trial counsel was present and advocated strongly for Purpera at all stages of his case
and certainly did not “fail[] to submit the prosecution’s case to meaningful adversarial testing.”
Cf. Cronic, 466 U.S. at 659–60.
Nor does the third situation apply here. That conclusion is strengthened by the limited
authority cited by Purpera where per se prejudice was found, which involved more serious
24

A77

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 25 of 33 Pageid#: 1807

conflicts directly related to the offense, such that the conflict would seem to fall within the third
Cronic category. For example, in United States v. Fulton, 5 F.3d 605, 611 (2d Cir. 1993), the
court concluded that allegations by a government witness that defense counsel had engaged in
heroin trafficking related to the heroin charge for which his client was on trial, created an actual
conflict that did not require a showing of adverse effect, but was a per se violation of the Sixth
Amendment. Similarly, the Fifth Circuit concluded that where defense counsel was being
investigated for helping his client escape, and his client was on trial for that same escape, this
constituted an actual conflict requiring disqualification regardless of any showing of actual
prejudice, absent a waiver. United States v. White, 706 F.2d 506, 510 (5th Cir. 1983).
In this case, by contrast, the conflict was not so great that no reasonable client would
consent, nor so great that no reasonable attorney could competently represent his client. The
investigation into Brownlee here related to Purpera, to be sure, in that it involved Brownlee’s
contact with two witnesses—Craft and Castleberry—before at least Castleberry testified before a
grand jury investigating Purpera, but there is no suggestion that Brownlee played any role in
Purpera’s crimes. Thus, the conduct simply was not on the same severe level as the cases noted
above that found a per se Sixth Amendment violation. See Fulton, 5 F.3d at 611 (explaining
that, in the Fifth Circuit, the per se rule applies not when an attorney is implicated in any crime,
but where an attorney is implicated in the crimes of his or her client). Notably, moreover, in
other cases with conflicts similar or more severe than that here (or with a closer relation to the
defendant’s crimes), courts have required a showing of adverse effect. See, e.g., Gov’t of
Virginia Islands v. Zepp, 748 F.2d 125 (3d Cir. 1984) (requiring a showing of an adverse effect,
rather than treating the conflict as a per se violation, where counsel faced potential criminal
liability for flushing heroin possessed by defendant down toilet, where defendant was charged

25

A78

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 26 of 33 Pageid#: 1808

with heroin offense); United States v. Greig, 967 F.2d 1018, 1024–25 (5th Cir. 1992) (requiring a
showing of an adverse effect, rather than treating the conflict as a per se violation, where counsel
faced disciplinary charges for talking with represented co-defendant of his client’s without
giving notice to that co-defendant’s attorney). Indeed, given Brownlee’s apparent lack of belief
that he had done anything wrong or that the investigation was even legitimate, Brownlee could
competently represent Purpera.
For these reasons, the court rejects Purpera’s argument that the conflict here requires per
se reversal.
5. Purpera has not shown an adverse effect on Brownlee’s representation resulting
from the conflict.
Because the conflict here did not require per se reversal, Purpera must establish an
adverse effect by meeting the three so-called Freund factors. As noted above, that means
Purpera must: (1) identify a plausible alternative defense strategy or tactic that his defense
counsel might have pursued: (2) establish that “the alternative strategy or tactic was objectively
reasonable under the facts of the case known to the attorney at the time of the attorney’s tactical
decision”; and (3) establish that the failure to pursue the strategy or tactic was linked to the
conflict. Nicholson I, 475 F.3d at 252 (quoting Mickens, 240 F.3d at 361).
Here, Purpera has identified two plausible alternative defense strategies or tactics that
Brownlee might have pursued. The first was to call Mosig as a witness in Purpera’s case-inchief. The second was to cross-examine Craft. The court addresses each in turn.
a. Failure to call Purpera’s wife
According to Purpera’s motion and her own affidavit, Rebecca Mosig Purpera (Mosig),
Dr. Purpera’s wife, was prepared to testify and, up until the time of trial, the defense strategy
included her testimony. She was the person who filled out the medication order forms at issue in
26

A79

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 27 of 33 Pageid#: 1809

the trial. She states that she would have testified that Purpera did not know that there was
anything incorrect about the order forms because she commonly signed the forms for him
without giving them to him for his review. Thus, according to her, her testimony would have
proved a lack of intent on Purpera’s part, and she was therefore an “essential” witness. (Suppl.
Post-Trial Mot. 14, Dkt. No. 165; Mosig Aff., Dkt. No. 167.) She was not called to testify,
however. The court agrees that calling her was a plausible alternative defense strategy that
Brownlee could have pursued and thus that Purpera can establish the first Freund factor. But
Purpera cannot show that such a strategy was “objectively reasonable,” nor can he establish that
the failure to call Mosig was in any way linked to the conflict.
Purpera cannot show that calling Mosig would have been “objectively reasonable.” In
short, and having sat through the entirety of the evidence in this trial, the court agrees with the
government that Mosig’s testimony (particularly that likely to be elicited on cross-examination)
would have been detrimental to the defense. As noted by the government, Mosig’s affidavit does
not list all the subjects about which she would face cross-examination, including:





Numerous prescriptions written to her by her husband [prescriptions
which are the subject of pending charges in another case against Purpera];
False information provided to another doctor about what medication she
was taking when she was seeking additional prescriptions for controlled
substances, which may have supported an inference that Purpera knew he
was not legitimately administering or prescribing controlled substances to
her or that he was not dispensing the controlled substances he was
ordering to her, contrary to his representations to the Department of Health
Professions;
Her request to not be written controlled substances by another doctor at
approximately the same time her husband was to begin being tested for
use of controlled substances, which may have supported a theory that
Purpera was himself using the controlled substances he was ordering.

(Suppl. Resp. to Def.’s Supp. Post-trial Motion 3–4, Dkt. No. 171.) While Purpera does not need
to show that the alternative strategy would have been successful, he does need to show that it

27

A80

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 28 of 33 Pageid#: 1810

would have been reasonable. Here, no such showing can be made due to the significant damage
that Mosig’s testimony could have done to Purpera’s case. Indeed, the court can see no
circumstance in which calling Mosig would have been objectively reasonable. Thus, Purpera
cannot establish the second factor—that the alternative strategy was objectively reasonable. Cf.
Stephens v. Branker, 570 F.3d 198, 211–13 (4th Cir. 2009) (describing various proposed defense
strategies as “plausible” but rejecting them under the second factor of the Mickens test, because
they were not “objectively reasonable”); United States v. Dehlinger, 740 F.3d 315, 325 (4th Cir.
2014) (affirming district court’s finding that proposed alternative strategies were not “objectively
reasonable,” and thus there was no “adverse effect” from the conflict).
As for any supposed link, the court cannot find any link between the decision not to call
Mosig and Brownlee’s conflict. The investigation into Brownlee was narrow and focused on
whether he had interfered with—at most—two specific witnesses and discouraged them from
testifying before the grand jury or from doing so without counsel. The investigation had nothing
to do with Mosig, nor (despite Purpera’s characterizations in his motion to the contrary) did it
have to do with Brownlee’s “preparation” for trial of any witness or witnesses. Also, as the
government points out, defense counsel did in fact call other witnesses to the stand who he had
interviewed prior to trial. Thus, there simply is no logical “link” between the decision not to call
Mosig and the alleged investigation into Brownlee.
For these reasons, Purpera has not shown an adverse effect on Brownlee’s performance
due to a failure to call Mosig.
b. Failure to cross-examine Craft
The second “plausible” tactic that Purpera alleges Brownlee should have taken and did
not was to cross-examine Craft, who was the witness sending text messages to Castleberry.

28

A81

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 29 of 33 Pageid#: 1811

8

Craft and Castleberry were the two witnesses involved in the tampering investigation. This
argument, however, is based on erroneous facts. Although Craft was not initially crossexamined, she was recalled shortly after her initial testimony, and she was, in fact, crossexamined by Purpera’s defense counsel (although by Gould, not Brownlee). So, she was crossexamined.
Even if Purpera had argued that the cross-examination should have been more vigorous,
he does not identify any topic of cross-examination, or any subject, that he believes should have
been pursued. Where there is a complete absence of a cross-examination, it might be enough to
say the alternative tactic would have been to cross-examine a witness. But because that was
done, Purpera must offer a topic or line of inquiry that he believes should have been pursued but
was not. He has failed to do that in his briefing and argument. Thus, the court concludes that
neither the first nor second of the Mickens factors are satisfied here. For this reason, an adverse
effect on Brownlee’s performance is not shown by this alleged failure, either.
Because there was no adverse effect on Brownlee’s representation, Purpera is not entitled
to a new trial.
6. Purpera’s waiver was not valid.
Because the court concludes that Purpera has failed to establish any adverse affect as a
result of the conflict, it is not strictly necessary to address in any detail whether Purpera’s waiver
of conflict-free counsel was knowing and voluntary. Nonetheless, the court will set forth the onrecord discussion on the topic for ease of reference, as well as its analysis on the issue. After a
recess, the following occurred:
MR. GOULD: Your Honor, I think we’re ready to proceed. We see
no issue with regard to any conflict or potential conflict.
8

Castleberry was never called as a witness.

29

A82

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 30 of 33 Pageid#: 1812

THE COURT: Very well. So I take it that motion is withdrawn?
Well, that’s the U.S.’s motion, so -MR. RAMSEYER: We’re not withdrawing the motion, Your
Honor. If I may just address that, if I could.
THE COURT: Okay.
MR. RAMSEYER: Defense counsel sent an e-mail to the
government yesterday, or we received it yesterday, indicating that
they were exploring the issue of whether they could continue to
represent Dr. Purpera, given the government’s response to their
motion to dismiss, where it indicated that some of the conduct of
defense counsel was being looked at. And we think, given the fact
that they raised that issue that they thought there was a potential
issue there, that there could potentially be a potential conflict of
interest under Rule 1.7. And we would request that the Court
inquire from Dr. Purpera if he’s interested -- willing to waive any
potential conflicts of interest. We think, at this point, it’s a
potential conflict of interest, not a conflict of interest. But given
that defense counsel has raised that they had some concerns about
that, we think it would be appropriate to make sure, if there
is any potential conflict of interest, that Dr. Purpera waives that.
THE COURT: Mr. Gould?
MR. GOULD: That note, again, we sent that out, I guess, on
Friday, and it had -- the intent of it was to ask a lot of questions
about what happened just today, Your Honor, about who
authorized this. And we did mention that possibility. Given the
wording of the government’s response, I think the record in front
of the Court today indicates that it’s very clear that, while there
may be an ongoing investigation of Dr. Purpera on some other
matters, that there is not any concern. Obviously, it’s Your
Honor’s courtroom. If you’d like to inquire of our client about his
comfort with Mr. Brownlee as counsel, you can absolutely do that.
But I don’t think it’s necessary in this case, and I think that, again,
the record made it very clear that, to the extent there is an
investigation, it’s of the healthcare fraud part. Does that make
sense?
THE COURT: It does. Would Mr. Purpera voluntarily, without
me requiring it, be willing to tell me whether or not he waives any
conflict?

30

A83

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 31 of 33 Pageid#: 1813

THE DEFENDANT: Your Honor, this is my team that I hired. I’m
innocent. I would like to move forward and get my life back
together.
THE COURT: All right. And did you – without telling me what
discussions you had with your counsel, was it explained to you that
there might be a potential for a conflict of interest?
THE DEFENDANT: Yes, ma’am.
THE COURT: All right. And do you feel you understand that?
THE DEFENDANT: I do, yes, ma’am.
THE COURT: All right. And are you still willing to go forward
with counsel from Holland & Knight representing you?
THE DEFENDANT: Yes, ma’am.
THE COURT: All right. Very well. Thank you.
MR. BROWNLEE: Thank you, Judge.
(Pre-trial Mots. Hr’g Tr. 105–08.)
As is evident from the foregoing, then, the record reflects that the court inquired with
Purpera about whether his counsel had explained to him that there was a potential conflict and
whether he understood the conflict or potential conflict. The record also reflects that a twelveminute recess was taken during which not just Brownlee, but also Gould spoke with Purpera to
discuss the conflict with him. Purpera twice told the court that he understood the conflict but
wanted to proceed with his current counsel. The first time he said, “This is my team that I hired.
I’m innocent. I would like to move forward and get my life back together.” (Hr’g Tr. 107–08.)
Purpera relies on a lot of out-of-circuit authority (primarily cases from the Second and
Fifth Circuits) that set forth specific procedures the court should take in order to ensure that a
waiver is knowing and voluntary. See, e.g., United States v. Greig, 967 F.2d 1013, 1022 (5th
Cir. 1992) (describing the so-called Garcia hearing to address a potential conflict of interest with
a defendant); United States v. Iorizzo, 786 F.2d 52, 59 (2d Cir. 1986). Although the procedures
set forth in these and related cases may be ideal practices for obtaining a waiver, Purpera cites to
no Fourth Circuit case adopting them or requiring them. Instead, the Fourth Circuit has
31

A84

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 32 of 33 Pageid#: 1814

explained that a waiver is valid if a defendant has “knowledge of the crux of the conflict and an
understanding of its implications, . . . even if the defendant does not know each detail concerning
the conflict.” United States v. Brown, 202 F.3d 691, 698 (4th Cir. 2000). Whether a waiver is
“knowing and intelligent depends on the circumstances of each individual case as well as the
background and experience of the accused.” United States v. Blau, 159 F.3d 68, 74 (2d
Cir.1998).
Here, many factors point in favor of finding a knowing and valid waiver. As an initial
matter, this case is somewhat unusual in that an entire hearing was held, in Mr. Purpera’s
presence, dealing with issues that allegedly gave rise to the conflict, i.e., the investigation into
Brownlee. Purpera is an intelligent man, with a medical degree and the capability of
understanding—perhaps much more than most defendants—what was being discussed regarding
Brownlee’s conduct, the government’s investigation, and the supposed conflict. Moreover, as
noted by his counsel early in the hearing, Purpera had been actively involved in his own defense
and read thoroughly case-related materials and cases. Gould advised the court that Purpera was
an “active participant in his defense,” and not just by giving advice—he’s “carefully” “read
everything,” including case law. (Pre-trial Mots. Hr’g Tr. 17–18.) All of these factors suggest
that he had knowledge of the exact nature of the conflict. Also, it is undisputed that he was
advised about the conflict by both Brownlee and by Gould, who is not alleged to labor under the
same conflict of interest, although he is from the same firm as Brownlee.
But the record does not definitively reflect that Purpera was advised specifically about
the possible implications of the conflict. See Brown, 202 F.3d at 698. That is, at no point on the
record was he advised that Brownlee might, for example, be less rigorous in his defense of
Purpera in order to curry favor with the United States Attorney for the Western District of

32

A85

Case 7:17-cr-00079-EKD Document 184 Filed 09/18/18 Page 33 of 33 Pageid#: 1815

Virginia, who was involved in the tampering investigation. That is one of the chief concerns of
this type of conflict of interest. See United States v. Fulton, 5 F.3d 605, 610 (2d Cir. 1993)
(explaining that “the attorney may fear that a spirited defense could uncover convincing evidence
of the attorney’s guilt or provoke the government into action against the attorney”). And
Purpera’s knowing in general terms about Brownlee being investigated is not the same as the
court explaining the conflict by telling him, for example, “Because Mr. Brownlee is being
investigated by the U.S. Attorney, he might not do everything he can to defend you because he
has his own interest in not angering the U.S. Attorney’s office.” Thus, although the court
questioned Purpera in general terms and relied on his own counsel to advise him, the court
acknowledges that it could have done more to discuss the implications of the conflict with
Purpera.
For these reasons, the court cannot conclude that Purpera’s waiver was intelligent and
knowing. Thus, the court does not rely on the purported waiver in denying Purpera’s motion.
III. CONCLUSION
For the foregoing reasons, the court will grant Purpera’s motion for judgment of acquittal
with regard to Count 21 only and will deny the motion for judgment of acquittal as to all other
counts. The court will conditionally grant a new trial as to Count 21 and will deny all other
remaining and pending post-trial motions filed by Purpera. An appropriate order will be entered.
Entered: September 18, 2018.

/s/ Elizabeth K. Dillon
Elizabeth K. Dillon
United States District Judge

33

A86

81
USA v. PURPERA, 7:17CR79, JURY TRIAL, 2/1/18
1

also my ruling with regard to the Rule 29 motion, that the

2

Court finds that that is not a requirement in the Fourth

3

Circuit, but for causation.

4

split in that regard, there's also a discussion about that

5

view being an outlier view, so the Court is not going to

6

instruct on that.

7
8

MR. TAYLOR:

And while there is a circuit

Yes, Your Honor.

Thank you, Your

Honor.

9

Page 25, this is jury instruction number 18.

We

10

would object to the use of the same definition of "material"

11

that is used for 18 U.S.C. Section 1001 later in the jury

12

instruction.

13
14

THE COURT:
"material."

15
16

We changed the later definition of

This one is what you wanted, I understand.

MR. TAYLOR:

Oh, then no objection, Your Honor.

My

apologies.

17

And then finally, our final objection is a jury

18

instruction of ours that we proffered that was not included.

19

That was our proposed jury instruction B6, which was our

20

proposed definition of "lawful course of professional

21

practice."

22

We base that substantially upon the jury instruction

23

that was used in United States v. McIver, which was upheld on

24

appeal.

25

all the pertinent case law on this issue.

And we cited the McIver case, which itself distills
And we believe it

Case 7:17-cr-00079-EKD Document 212 Filed 02/11/19 Page 81 of 208 Pageid#: 2539

APPENDIX D

A87

82
USA v. PURPERA, 7:17CR79, JURY TRIAL, 2/1/18
1

would be helpful to the jury and actually prejudicial to

2

Dr. Purpera to not include that instruction, especially

3

including an instruction on good faith as required by United

4

States v. --

5
6

THE COURT:

instruction, sir, for the record?

7

MR. TAYLOR:

8

THE COURT:

9

And would you like to tender that

Yes, I would.
All right.

You may do so.

And the

Court notes that I believe it's not an appropriate

10

instruction for this case and will not instruct the jury as

11

requested.

12

MR. TAYLOR:

13

THE COURT:

14

MR. RAMSEYER:

All right.

Thank you, Your Honor.

Thank you.
Your Honor, totally just a reminder

15

what the Court said the Court was going to do, on page 30,

16

instruction number 23, just in the first line, the word

17

"next," I think the Court indicated it was going to take that

18

word out just because it wasn't in the next paragraph when we

19

were talking about that.

20

THE COURT:

21

MR. RAMSEYER:

22

It is "next" now.
I thought you said you were taking

"next" out.

23

THE COURT:

24

MR. RAMSEYER:

25

THE COURT:

There were two "nexts."
Oh.

And we eliminated the first one.

Case 7:17-cr-00079-EKD Document 212 Filed 02/11/19 Page 82 of 208 Pageid#: 2540

A88

Case 7:17-cr-00079-EKD Document 110 Filed 02/01/18 Page 1 of 2 Pageid#: 561

Instruction B-6.
Count 69: Omitting material information on controlled-substances
records required to be kept-lawful course of professional practice.
The previous instruction, d~scribing the third element of this count, described the
two exceptions to recordkeeping for controlled substances prescribed or administered
in the lawful course of professional practice.
In making a medical judgment concerning the right treatment for an individual
patient, physicians have discretion to choose among a wide range of available options.
' Therefore, in determining whether the defendant acted outside the lawful course of
professional practice, you should examine all of the Defendant's actions and the
circumstances surrounding them.
If a physician prescribes or administers a drug in good faith, then he has done so
within the lawful course of professional practice. A physician prescribes or
administers a drug in good faith in medically treating a patient when he does so for
'
a legitimate medical purpose in the usual course of medical practice. Good faith
means good intentions and the honest exercise of best professional judgment as to the
patient's needs. It means that the doctor acted in accordance with (what he
reasonably believed to be) the standard of medical practice generally recognized and
accepted in the United States.
In contrast, a physician acts outside the lawful course of professional practice when
he prescribes or administers a controlled substance other than for a legitimate
medical purpose and not in the usual course of medical practice. For you to find that
the government has proven this, it is not enough, standing alone, for the Government
to prove beyond a reasonable doubt that the physician violated a rule or regulation,
treated a patient differently than another physician would have, or even committed
medical malpractice or otherwise negligently violated the professional standard of
care, although you may consider such things as part of your assessment of the totality
of the circumstances.
Instead, the Government must prove beyond a reasonable doubt that the Defendant
was acting outside the bounds of any legitimate professional medical practice-that
he was using his authority to prescribe or administer controlled substances not for

19

Case 7:17-cr-00079-EKD Document 60 Filed 01/22/18 Page 22 of 34 Pageid#: 246

APPENDIX E

A89

Case 7:17-cr-00079-EKD Document 110 Filed 02/01/18 Page 2 of 2 Pageid#: 562

treatment of a patient, but for an illegitimate purpose, such as for making a personal
profit or maintaining another's drug habit.36

See United States v. Mciver, 470 F.3d 550, 557-60 (4th Cir. 2006); see also Jury Instructions at 1719, United States v. Mciver, No. 8:04-cr-745-HFF (D.S.C. Apr. 18, 2005), ECF 27.

36

20

Case 7:17-cr-00079-EKD Document 60 Filed 01/22/18 Page 23 of 34 Pageid#: 247

A90

